BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 21-414
FIRST MIDWEST BANK, guardian of the estate of
Michael D. LaPorta, a disabled person,

Petitioner,
V,

CITY OF CHICAGO,

Respondent.
As required by Supreme Court Rule 33. l(h), I
certify that the Brief for the Rutherford Institute and
Cato Institute as Amici Curiae in Support of Petitioner
contains 2,945 words, excluding the parts of the Brief
that are exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on October 7, 2021.

Heather Campbell
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

I

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

(800) 890.5001

Suite 102

· 1300 I Street, NW, Suite 400E

Franklin Square

www.beckergallagher.com

Cincinnati, Ohio 45249

. Washington, DC 20005

Sworn to and subscribed before me by said Affi.ant
on the date designated below.

[seal]

